                                    Office of the Special Inspector General
               SIGAR            I   for Afghanistan Reconstruction




                                                                                             March 25, 2013
The Honorable Chuck Hagel
Secretary of Defense


Dear Secretary Hagel,

As you know, my office is charged by Congress with the responsibility for leading, coord inating, and
recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
the reconstruction of Afghanistan. The audits, inspections, and investigations that S IGAR conducts form
the basis for our execution of this responsibility.

Tn a recent conversation with the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I bel ieve that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and failures . Such an understanding is critical for formulating lessons learned from our
unprecedented reconstruction effort.

Therefore, l fo rmally request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by the Department of Defense;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by the Department of Defense; and
    •   a detailed explanation of how these projects/programs were evaluated and selected as the ten most
        and least successful projects, including the specific criteria used for each.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended and the
Inspector General Act of 1978, as amended. Please direct your staff to provide this information
April 25, 20 13, to Monica Brym, SIGAR Director of Special Projects, at                             If
yo~tions or concerns, please do not hesitate to contact me at
at- - Thank you for your prompt attention to this matter.




cc:
General Joseph F. Dunford, Jr., Commander, U.S. Forces-Afghani stan, and
    Commander, International Security Assistance Force
General James N. Mattis, Commander, U.S. Central Command

               1550 Crystal Drive, 9th Floor
               Arlington, Virginia 22202
                                                   Mailing 2530 Crystal Drive
                                                   Arlington, VIrginia 22202-3940
                                                                                    I   T
                                                                                        ,e
                                                                                            1 703 545 6000    I   www.stgar.mll
                                    Office of the Special Inspector General
               SIGAR I for Afghanistan Reconstruction

                                                                                          March 25, 20 13


 The Honorable John F. Kerry
 U.S. Secretary of State


 Dear Secretary Kerry,

 As you know, my office is charged by Congress with the responsibility for leading, coordinating, and
 recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
 the reconstruction of Afghanistan. The audits, inspections, and investigations that S IGAR conducts form
 the basis for our execution of this responsibi lity.

In a recent conversation w ith the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I believe that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and fa ilures. Such an understanding is critical for formulating lessons learned from our
unprecedented reconstruction effort.

Therefore, I forma lly request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by the Department of State;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by the Department of State; and
    •   a deta iled explanation of how these projects/programs were evaluated and selected as the ten most
        and least successful projects, including the speci·fic criteria used for each.

I am submitting this request pursuant to my authority under Publ ic Law No. II 0-18 1, as amended and the
Inspector General Act of 1978, as amended. Please direct your staff to     ide this information by April
25, 2013 , to Monica Brym, SIGAR Director of Special Projects, at                                  If you
~on s or concerns, please do not hesitate to contact me                                   r Ms . Brym at
- - -· Thank you for your prompt attention to this matter.




cc: The Honorable James B. Cunningham, U.S. Ambassador to Afghanistan




               1550 Crystal Drive, 9th Floor
               Arlington, VIrginia 22202
                                                   Mailing 2530 Crystal Dr1ve
                                                   Arlington, Virginia 22202-3940
                                                                                    I   Tel 703 545 6000   I   www.sigar.mll
               SIGAR               I   Office of the Special Inspector General
                                       for Afghanistan Reconstruction




                                                                                              March 25, 2013


The Honorable Rajiv Shah
Administrator
U.S. Agency for International Development


Dear Dr. Shah,

As you know, my office is charged by Congress with the responsibility for leading, coord inating, and
recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
the reconstruction of Afghanistan. The audits, inspections, and investigations that SIGAR conducts form
the basis for our execution of this responsibility.

In a recent conversation with the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I believe that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and fa ilures. Such an understanding is critical for formulating lessons learned from our
unprecedented reconstruction effort.

Therefore, I formally request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by USA ID;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by USA ID; and
    •   a detai led explanation of how these projects/programs were evaluated and selected as the ten most
        and least successfu l projects, including the specific criteria used for each .

I am submitting this request pursuant to my authority under Public Law No. II 0-181 , as amended and the
Inspector General Act of 1978, as amended . Please direct your staff to provide this information
April 25, 2013, to Monica Brym, SIGAR Director of Special Projects, at                                If
y • I « • ~f  I   etions or concerns, please do not hesitate to contact me at
at                   Thank you for your prompt attention to th is matter.




cc: Dr. S. Ken Yamashita, USAID Mission Director for Afghanistan



                 1550 Crystal Drive, 9th Floor
                 Arlington, VIrginia 22202
                                                      Mailing 2530 Crystal Drive
                                                      Arlington, VIrginia 22202-3940
                                                                                       I   1i 1 703 545 6000
                                                                                            e                  I   www.slgar.mll
